WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1625

David Lillie ManTech International Corporation
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court

Please check the appropriate box:
© Lam filing this waiver on behalf of all respondents.

O only represent some respondents. I am filing this waiver on behalf of the following respondent(s)

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter

your appearance first.)

 

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court.
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: PAKE\ c

Date: 5/28/21

(Type or print) Name Brian Tully McLaughlin

© wr O Ms O mrs. O Miss

Firm Crowell & Moring LLP

Address 1001 Pennsylvania Ave. N.W.

City & State — Washington, D.C. Zip 20004
Phone 202-624-2628 Email bmclaughlin@crowell.com

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

Jan Aune
cet
